No. 20-1614
IN THE SUPREME COURT OF THE UNITED STATES
_________________
JOHN D. LEONTARITIS, PETITIONER
v.
UNITED STATES OF AMERICA
_________________
CERTIFICATE OF SERVICE
It is hereby certified that all parties required to be served have been served with copies of
the BRIEF FOR THE UNITED STATES IN OPPOSITION via e-mail and first-class mail,
postage prepaid, this 7th day of September 2021.
[See Attached Service List]
As required by Supreme Court Rule 33.1(h), I certify that the document contain 3,239 words,
excluding the parts of the document that are exempted by Supreme Court Rule 33.1(d). I declare
under penalty of perjury that the foregoing is true and correct. Executed on
September 7, 2021

Brian H. Fletcher
Acting Solicitor General
Counsel of Record
Department of Justice
Washington, D.C. 20530-0001
(202) 514-2217
September 7, 2021
Due to the continuing delay in receiving incoming mail at the Department of Justice, in
addition to mailing your brief via first-class mail, we would appreciate a fax or email copy of
your brief. If that is acceptable to you, please fax your brief to Charlene Goodwin, Case
Management Supervisor, Office of the Solicitor General, at (202) 514-8844, or email at
SupremeCtBriefs@USDOJ.gov. Ms. Goodwin’s phone number is (202) 514-2217 or 2218.
Thank you for your consideration of this request.

20-1614
LEONTARITIS, JOHN D.
USA

CHARLES RANDALL FLORES
BECK REDDEN LLP
1221 MCKINNEY ST.
SUITE 4500
HOUSTON, TX 77010
713-951-6268
CFLORES@BECKREDDEN.COM
FEDERICO REYNAL
FERTITTA REYNAL, LLP
815 WALKER STREET
SUITE 1553
HOUSTON, TX 77002
713-228-5900
AREYNAL@FRLAW.US
713-820-6981(Fax)

